audit report
Return
to the USDOJ/OIG Home Page
Superfund Activities in the Environment and Natural Resources Division for Fiscal Year 1996
Report No. 98-16
July 1998
Office of the Inspector General
EXECUTIVE SUMMARY
In December 1980, the Comprehensive Environmental Response, Compensation and Liability Act of 1980 (known as CERCLA or Superfund) was signed into law.  CERCLA provides for liability, compensation, cleanup, and emergency response for hazardous substances released into the environment and uncontrolled and abandoned hazardous waste sites.  The implementing procedures for this legislation provide that the Attorney General is responsible for the conduct and control of all litigation arising under Superfund, to be reimbursed through interagency agreements with the Environmental Protection Agency (EPA).  These agreements authorized the Environmental and Natural Resources Division (ENRD) to be reimbursed for direct and indirect costs incurred in performing litigation, and required ENRD to institute a system of accounting for processing this accounting data.
In our judgment, the Superfund case costs as accumulated by ENRD present fairly in all material respects the expenses incurred by the ENRD in litigating Superfund cases.  We found that internal controls to ensure the fair accumulation of costs incurred for Superfund cases were generally adequate, and that costs incurred and charged to Superfund cases were generally allocable.  However, our audit disclosed that controls could be strengthened for the entry of time and transaction data in the Financial Management Information System (FMIS).  While these errors did not result in material misstatements in the reimbursable costs, they indicate systemic deficiencies  that may lead to material misstatement if not corrected.
Our audit objectives, scope, and methodology are contained in Appendix I.  The EPA Billing Summary is contained in Appendix II.